AFFIDAVIT OF SERVICE

SUPREME COURT OF THE UNITED STATES

No. 19-

wane ene X
AMEER SIDDIQUI,

Petitioner,
v.
NETJETS AVIATION, INC.,
Respondent.
a X

STATE OF NEW YORK )
COUNTY OF NEW YORK _ )

I, Marianna Iannotta, being duly sworn according to law and being over the age of
18, upon my oath depose and say that:

Iam retained by Counsel of Record for Petitioner.

That on the 15" day of October, 2019, I served the within Petition for a Writ of
Certiorari in the above-captioned matter upon:

Nathan M. Berman

ZUCKERMAN SPAEDER LLP

101 East Kennedy Boulevard, Suite 1200
Tampa, Florida 33602

Tel: 813.221.1010

Fax: 813.223.7961

nberman: @zuckerman.com

Attorneys for Respondent

by depositing three copies of same, addressed to each individual respectively, and
enclosed in a post-paid, properly addressed wrapper, in an official depository maintained
by the United States Postal Service, via Express Mail.

That on the same date as above, I sent to this Court forty bound copies and one
unbound copy of the within Petition for a Writ of Certiorari and three hundred dollar
filing fee check through the United States Postal Service by Express Mail, postage
prepaid.
In addition, the brief has been submitted electronically through the Court’s
electronic filing system. All parties required to be served have been served.

I declare under penalty of perjury that the foregoing is true and correct.

Executed on this 15"" day of October, 2019.

 

Sworn to and subscribed before me this 15" day of October, 2019.

 

Notary Public State of New York
No. 24-4799601
Qualified in Kings County
Commission Expires August 31, 2021

#291656

g

COUNSEL PRESS
(800) 274-3321 + (800) 359-6859
www counselpress.com
